Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




 GROUP HEALTH INCORPORATED
OVERSTATED ALLOCABLE PENSION
    COSTS FOR PLAN YEARS
        2007 AND 2008




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                        March 2013
                                                       A-07-12-00381
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Group Health Incorporated (GHI), an EmblemHealth Company, administered Medicare Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS), which terminated July 18, 2008. GHI also administers Medicare operations
under a Coordination of Benefits contract with CMS. In addition, GHI performs Medicare work
as a subcontractor on the Retiree Drug Subsidy and on the Medicare Secondary Payer Recovery
contracts.

During our audit period, GHI had three defined benefit pension plans. This report will address
the allocable pension costs computed for all three of these pension plans.

Before January 1, 2007, GHI based its request for Medicare reimbursement on actual costs.
Effective January 1, 2007, GHI amended its disclosure statement with CMS to receive Medicare
reimbursement based on indirect cost rates submitted on incurred cost proposals (ICP).

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. The pension costs are included in the computation of the indirect cost rates reported on
the ICPs. In turn, CMS uses indirect cost rates in reimbursing costs under cost-reimbursement
contracts. In claiming costs, contractors must follow cost reimbursement principles contained in
the Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the Medicare allocable pension costs for plan years (PY) 2007
and 2008 for the:

    •   fringe cost pool and the general and administrative (G&A) cost pool, and

    •   indirect fringe cost rate and the indirect G&A cost rate.

SUMMARY OF FINDINGS

GHI overstated the allocable pension costs in its fringe cost pool by $1,411,051, and its G&A
cost pool by $10,382,279, for PYs 2007 and 2008. These overstatements occurred because GHI
based its allocable pension costs on an amount that did not comply with the provisions of CAS
412 and 413. Specifically:

   •    GHI reported allocable pension costs of $4,669,583 in its fringe cost pool for PYs 2007
        and 2008. We determined that the allocable pension costs in GHI’s fringe cost pool for


                                                 i
       that period were $3,258,532. Thus, GHI overstated the allocable pension costs in its
       fringe cost pool by $1,411,051.

   •   Additionally, GHI reported allocable pension costs of $24,524,923 in its G&A cost pool.
       We determined that the allocable pension costs in GHI’s G&A cost pool for that period
       were $14,142,644. Thus, GHI overstated the allocable pension costs in its G&A cost
       pool by $10,382,279.

The overstatements in allocable pension costs in both of GHI’s cost pools also caused GHI to
overstate the pension costs used to calculate the corresponding indirect cost rates. Accordingly,
for PYs 2007 and 2008 GHI overstated the pension costs used to calculate its indirect fringe cost
rate by $1,411,051 and the pension costs used to calculate its indirect G&A cost rate by
$376,093. As with the overstatements in the cost pools, these overstatements occurred because
GHI based its allocable pension costs on an amount that did not comply with the provisions of
CAS 412 and 413. Specifically:

   •   GHI reported pension costs of $4,669,583 used to calculate its indirect fringe cost rate for
       PYs 2007 and 2008. (This amount is the same as the amount GHI reported in its fringe
       cost pool for this period because GHI’s Medicare segment performed work only on
       Medicare contracts. Thus, 100 percent of the costs in the fringe cost pool were included
       in the calculation of the indirect fringe cost rate.) Replicating GHI’s allocation
       methodology in allocating pension costs from the cost pools to the indirect cost rates, we
       determined that the pension costs were $3,258,532 for the indirect fringe cost rate. Thus,
       GHI overstated the pension costs used to calculate its indirect fringe cost rate by
       $1,411,051.

   •   GHI reported pension costs of $916,946 used to calculate its indirect G&A cost rate for
       PYs 2007 and 2008. Replicating GHI’s allocation methodology in allocating pension
       costs from the cost pools to the indirect cost rates, we determined that the pension costs
       were $540,853 for the indirect G&A cost rate. Thus, GHI overstated the pension costs
       used to calculate its indirect G&A cost rate by $376,093.

RECOMMENDATIONS

We recommend that GHI:

   •   decrease the allocable pension costs in its fringe cost pool (and used to calculate its
       indirect fringe cost rate) by $1,411,051, and recognize $3,258,532 as the allocable
       pension costs for the fringe cost pool and its indirect fringe rate calculation in its ICPs for
       PYs 2007 and 2008; and

   •   decrease the allocable pension costs in its G&A cost pool by $10,382,279 and recognize
       $540,853 as the pension costs included in the indirect G&A cost rate calculation in its
       ICPs for PYs 2007 and 2008.




                                                  ii
AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, GHI disagreed with the calculations that we used to
develop our findings and recommendations. GHI stated that the methodology that MERCER,
one of its actuarial consulting firms, used to calculate pension costs resulted in more accurate
figures than the methodology that was used by CMS’s Office of the Actuary and that we
followed for our calculations.

After reviewing GHI’s comments and supporting calculations, we maintain that our findings and
recommendations remain valid as stated. We based our CAS calculations on information and
assumptions used by GHI and its Local 153 plan (one of the defined benefit pension plans that
GHI administered) actuary to calculate Employee Retirement Income Security Act of 1974
funding requirements. After we had performed our fieldwork for this audit, GHI hired MERCER
to prepare CAS calculations for another audit; however, MERCER’s calculations did not use the
same assumptions as those initially selected by GHI and its Local 153 plan actuary.
Additionally, MERCER’s calculations did not comply with the pension segmentation language
contained in the Medicare contract and did not provide any justification for its change in plan
assumptions.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Group Health Incorporated and Medicare .............................................................. 1
              Medicare Reimbursement ....................................................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 2
               Objective ................................................................................................................. 2
               Scope ....................................................................................................................... 2
               Methodology ........................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................... 3

          FEDERAL REQUIREMENTS ........................................................................................... 4

          ALLOCABLE PENSION COSTS IN THE FRINGE COST POOL
           AND INDIRECT FRINGE COST RATE ....................................................................... 4
               Overstated Allocable Pension Costs in the Fringe Cost Pool ................................. 4
               Overstated Pension Costs in the Indirect Fringe Cost Rate .................................... 5

          ALLOCABLE PENSION COSTS IN THE GENERAL AND ADMINISTRATIVE
           COST POOL AND INDIRECT COST RATE ................................................................ 5
               Overstated Allocable Pension Costs in the General and
                Administrative Cost Pool ..................................................................................... 5
               Overstated Pension Costs in the Indirect General and
                Administrative Cost Rate ..................................................................................... 6

          RECOMMENDATIONS .................................................................................................... 7

          AUDITEE COMMENTS AND OFFICE OF
           INSPECTOR GENERAL RESPONSE ........................................................................... 8
               Historical Cost Submissions ................................................................................... 8
               Federal Employees Health Benefits
                 Cost Accounting Standards Calculations ............................................................ 9
               Differences in Cost Accounting Standards Methodology .................................... 10
               Assumptions, Actuarial Methods, and Calculations ............................................. 10

APPENDIXES

    A: ALLOCABLE MEDICARE PENSION COSTS FOR THE
        LOCAL 153 PENSION PLAN FOR GROUP HEALTH INCORPORATED
        FOR PLAN YEARS 2007 AND 2008




                                                                     iv
B: ALLOCABLE MEDICARE PENSION COSTS FOR THE
    CASH BALANCE PENSION PLAN FOR GROUP HEALTH INCORPORATED
    FOR PLAN YEARS 2007 AND 2008

C: ALLOCABLE MEDICARE PENSION COSTS FOR THE
    EMBLEMHEALTH SERVICES COMPANY, LLC, EMPLOYEES’ RETIREMENT
    PLAN FOR GROUP HEALTH INCORPORATED
    FOR PLAN YEAR 2008

D: TOTAL ALLOCABLE PENSION COSTS
    FOR GROUP HEALTH INCORPORATED
    FOR PLAN YEARS 2007 AND 2008

E: AUDITEE COMMENTS

F: CENTERS FOR MEDICARE & MEDICAID SERVICES
    OFFICE OF THE ACTUARY MEMORANDUM




                               v
                                               INTRODUCTION

BACKGROUND

Group Health Incorporated and Medicare

Group Health Incorporated (GHI), an EmblemHealth Company, administered Medicare Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS), which terminated July 18, 2008. As of November 1, 1999, GHI also
administers Medicare operations under a Coordination of Benefits (COB) contract with CMS. 1
In addition, GHI performs Medicare work as a subcontractor on the Retiree Drug Subsidy and
Medicare Secondary Payer Recovery contracts as of February 17, 2005, and August 15, 2006,
respectively.

During our audit period, GHI had three defined benefit pension plans: the GHI Local 153
Pension Plan, the GHI Cash Balance Pension Plan, and the EmblemHealth Services Company,
LLC, Employees’ Retirement Plan. Medicare segment employees participated in all three
defined benefit pension plans. This report will address the allocable pension costs computed for
all three defined benefit pension plans for plan years (PY) 2007 through 2008. 2

Before January 1, 2007, GHI based its request for Medicare reimbursement on actual costs.
Effective January 1, 2007, GHI amended its disclosure statement with CMS to receive
reimbursement based on indirect cost rates submitted on incurred cost proposals (ICP). 3

Medicare Reimbursement

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. The pension costs are included in the computation of the indirect cost rates reported on
the ICPs. In turn, CMS uses indirect cost rates in reimbursing costs under cost-reimbursement
contracts. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR). In claiming
costs, contractors must follow cost reimbursement principles contained in the FAR, the CAS, and
the Medicare contracts.

1
 The COB contract was issued in accordance with Section 1893 of the Social Security Act, (added by Section
202(a) of Public Law 104-191, Health Insurance Portability and Accountability Act of 1996) to carry out the
Medicare Integrity Program activities established by the Act. The primary function of the COB contract is to
consolidate activities that support the collection, management, and reporting of all health insurance coverage of
Medicare beneficiaries.
2
 We reviewed the allowability of the Part B pension costs that GHI claimed for Medicare reimbursements in a
separate audit (A-07-12-00379).
3
  ICPs are submitted annually by Medicare contractors and generally consist of direct and indirect costs sustained by
the contractor while performing the duties of the contract. Following the close of each Medicare contractor’s
calendar year (CY), each contractor submits to CMS an ICP reporting Medicare direct and indirect costs incurred
during that CY. The ICP and supporting data provide the basis for the CMS Contracting Officer and the Medicare
contractor to determine the final billing rates for allowable Medicare costs.


                                                          1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the Medicare allocable pension costs for PYs 2007 and 2008 for
the:

    •    fringe cost pool and the general and administrative (G&A) cost pool, and

    •    indirect fringe cost rate and the indirect G&A cost rate.

Scope

We reviewed $29,194,505 of allocable pension costs in the fringe and G&A cost pools for PYs
2007 and 2008. GHI included these costs in its ICPs, which were then used in its calculation of
its indirect cost rates.

Achieving our objective did not require that we review GHI’s overall internal control structure.
We limited our review to the internal controls related to the pension costs that were included in
GHI’s ICPs and ultimately used as the basis for Medicare reimbursement, to ensure that the
pension costs were allocable in accordance with the FAR and the CAS.

We performed fieldwork at GHI in New York, New York, during September 2008 and July
2010.

Methodology

We reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit. We
identified the amount of allocable pension costs computed for Medicare reimbursement for PYs
2007 through 2008 by reviewing GHI’s ICPs. We also determined the extent to which GHI
funded CAS-based pension costs with contributions to the pension trust fund and accumulated
prepayment credits.

We based our calculations of allocable pension costs on CMS Office of the Actuary’s (OACT)
computation of CAS-based pension costs for the Medicare segment and the “Other” segment.
OACT separately computed each segment’s CAS-based pension costs. OACT based its
computations on GHI’s historical practices and on the results of our reviews of GHI’s pension
segmentation requirements for each of the three pension plans 4 as well as our reviews of GHI’s
unfunded pension costs for the Local 153 Pension Plan for PYs 1987 through 2007
(A-07-12-00375) and the GHI Cash Balance Pension Plan for PYs 2003 through 2007
(A-07-12-00376).


4
  The three pension plans we reviewed on the basis of pension segmentation requirements were the Local 153
Pension Plan for the period April 1, 1987, to January 1, 2009 (A-07-11-00358), the GHI Cash Balance Pension Plan
for the period September 1, 2003, to January 1, 2009 (A-07-12-00374), and the EmblemHealth Services Company,
LLC, Employees’ Retirement Plan for the period January 1, 2008, to January 1, 2009 (A-07-12-00378).


                                                       2
                                                                                                                     I

                                                                                                                     I




In performing our review, we used information that GHI's actuarial consulting firms provided.
The information included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We examined GHI's accounting records,
pension plan documents, annual actuarial valuation reports, and Department of Labor/Internal
Revenue Service (IRS) Forms 5500. We also reviewed the Defense Contract Audit Agency
audit report, GHI Medicare Audit ofIncurred Cost Proposals for the Years Ended December 31,
2007, 2008 and 2009. We used the results of this review in our calculation of the pension costs
included in the indirect G&A cost rate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

GHI overstated the allocable pension costs in its fringe cost pool by $1,411,051, and its G&A
cost pool by $10,382,279, for PYs 2007 and 2008. These overstatements occurred because GHI
based its allocable pension costs on an amount that did not comply with the provisions of CAS
412 and 413. Specifically:

    • 	 GHI reported allocable pension costs of$4,669,583 in its fringe cost pool for PYs 2007
        and 2008. We determined that the allocable pension costs in GHI's fringe cost pool for
        that period were $3,258,532. Thus, GHI overstated the allocable pension costs in its
        fringe cost pool by $1,411,051.

    • 	 Additionally, GHI reported allocable pension costs of$24,524,923 in its G&A cost pool.
        We determined that the allocable pension costs in GHI's G&A cost pool for that period
        were $14,142,644. Thus, GHI overstated the allocable pension costs in its G&A cost
        pool by $10,382,279.

The overstatements in allocable pension costs in both ofGHI's cost pools also caused GHI to
overstate the pension costs used to calculate the corresponding indirect cost rates. Accordingly,
for PY s 2007 and 2008 GHI overstated the pension costs used to calculate its indirect fringe cost
rate by $1,411,051 and the pension costs used to calculate its indirect G&A cost rate by
$376,093. As with the overstatements in the cost pools, these overstatements occurred because
GHI based its allocable pension costs on an amount that did not comply with the provisions of
CAS 412 and 413. Specifically:

    • 	 GHI reported pension costs of $4,669,583 used to calculate its indirect fringe cost rate for
        PYs 2007 and 2008. 5 Replicating GHI's allocation methodology in allocating pension
        costs from the cost pools to the indirect cost rates, we determined that the pension costs

5
 This amount is the same as the amount GHI reported in its fringe cost pool for this period because GHI's Medicare
segment performed work only on Medicare contracts. Thus, 100 percent of the costs in the fringe cost pool were
included in the calculation of the indirect fringe cost rate.


                                                        3
       were $3,258,532 for the indirect fringe cost rate. Thus, GHI overstated the pension costs
       used to calculate its indirect fringe cost rate by $1,411,051.

   •   GHI reported pension costs of $916,946 used to calculate its indirect G&A cost rate for
       PYs 2007 and 2008. Replicating GHI’s allocation methodology in allocating pension
       costs from the cost pools to the indirect cost rates, we determined that the pension costs
       were $540,853 for the indirect G&A cost rate. Thus, GHI overstated the pension costs
       used to calculate its indirect G&A cost rate by $376,093.

FEDERAL REQUIREMENTS

The Medicare contracts require GHI to submit invoices in accordance with FAR 52.216-7,
“Allowable Cost & Payment.” Furthermore, FAR 52.216-7(a)(1) addresses the invoicing
requirements and the allowability of payments as determined by the Contracting Officer in
accordance with FAR subpart 31.2.

FAR 31.205-6(j) requires contractors to measure, assign, and allocate the costs of all defined
benefit pension plans in accordance with CAS 412 and 413. FAR 31.205-6(j) also addresses
allowability of pension costs by requiring that plan contributions substantiate pension costs
assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOCABLE PENSION COSTS IN THE FRINGE COST POOL
AND INDIRECT FRINGE COST RATE

GHI overstated the allocable pension costs in its fringe cost pool by $1,411,051 for PYs 2007
and 2008. Furthermore, GHI overstated the pension costs used to calculate its indirect fringe
cost rate by $1,411,051 for the same period. These overstatements occurred because GHI based
its allocable pension costs on an amount that did not comply with the provisions of CAS 412 and
413.

Overstated Allocable Pension Costs in the Fringe Cost Pool

GHI reported allocable pension costs of $4,669,583 in its fringe cost pool for PYs 2007 and
2008. We determined that the allocable pension costs in GHI’s fringe cost pool for that period
were $3,258,532. Thus, GHI overstated the allocable pension costs in its fringe cost pool by
$1,411,051.




                                                4
The table below compares allocable Medicare segment CAS-based pension costs included in the
fringe cost pool with the allocable pension costs reported on GHI's ICPs. Appendix D contains
additional details on allocable pension costs.

          Comparison of Allocable Pension Costs Included in the Fringe Cost Pool

                                                                    .....
                                                                              Allocable Pension Costs
                   '                                                          Allocable ' Reported
                         Plan Year                                            Per Audit     ByGHI                  Difference
                           2007
                   ·-··~•ONOO-~   .. .. --_..___
                                   ~               ~,,,.,,_,,_,po~----·•po
                                                                             .J}y:!_1_!~~?-~·t·J?J.?..?.!,}_~_?._ ($1' 109,~.??.2.
                           2008                                                  1,846,876         2,148,448         (301,572)
                           Total                                               $3,258,532 $4,669,583 ($1,411,051)

Overstated Pension Costs in the Indirect Fringe Cost Rate

GHI reported pension costs of$4,669,583 used to calculate its indirect fringe cost rate for PYs
2007 and 2008. As stated above, GHI reported allocable pension costs of$4,669,583 in its
fringe cost pool for this period and ultimately allocated the same amount to be used in its
calculation of its indirect fringe cost rate for the same period. We calculated the allocable
pension costs based on a separately computed CAS-based allocable pension costs for the
Medicare segment in accordance with CAS 412 and 413. We allocated 100 percent of the CAS­
based allocable pension costs to the Medicare segment because it performed work only on
Medicare contracts. We determined that, based on the requirements of CAS 412 and 413, the
pension costs for PYs 2007 and 2008 were $3,258,532.

The FAR, the CAS, and the Medicare contracts require GHI to calculate pension costs for
Medicare reimbursement pursuant to CAS 412 and 413. However, GHI based its allocable
pension costs used for Medicare reimbursement on an amount that did not comply with the
provisions of CAS 412 and 413. As a result, GHI overstated the pension costs in its fringe cost
pool, and used to calculate its indirect fringe cost rate, by $1,411,051.

ALLOCABLE PENSION COSTS IN THE GENERAL AND ADMINISTRATIVE
COST POOL AND INDIRECT COST RATE

GHI overstated the allocable pension costs in its G&A cost pool by $10,382,279 for PYs 2007
and 2008. Furthermore, GHI overstated the allocable pension costs used to calculate its indirect
G&A cost rate by $376,093 for the same period. These overstatements occurred because GHI
based its allocable pension costs on an amount that did not comply with the provisions of CAS
412 and 413.

Overstated Allocable Pension Costs in the General and
Administrative Cost Pool

GHI reported allocable pension costs of $24,524,923 in its G&A cost pool for PY s 2007 and
2008. We determined that the allocable pension costs in its G&A cost pool for that period were




                                                                                             5

$14,142,644. Thus, GHI overstated the allocable pension costs in its G&A cost pool by
$10,382,279.

The table below compares allocable "Other" segment CAS-based pension costs included in the
G&A cost pool with the allocable pension costs reported on GHI's ICPs. Appendix D contains
additional details on allocable pension costs.

           Comparison of Allocable Pension Costs Included in the G&A Cost Pool

                                 Allocable Pension Costs
                             Allocable Per   Reported by
                 Plan Year       Audit           GHI          Difference
                    2007   I $7,948,757 I      $12,503,843 I ($4,555,086)
                    2008   !     6,193,887!      12,021,080 i (5,827,193)
                   Total      $14,142,644      $24,524,923 ($10,382,279)

Overstated Pension Costs in the Indirect General and
Administrative Cost Rate

GHI reported pension costs of$916,946 used to calculate its indirect G&A cost rate for PYs
2007 and 2008. GHI reported allocable pension costs of$24,524,923 in its G&A cost pool for
this period and allocated $916,946 to be used in its calculation of its indirect G&A cost rate for
the same period. We calculated the allocable pension costs based on a separately computed
CAS-based allocable pension costs for the "Other" segment in accordance with CAS 412 and
413. As stated above, based on the requirements ofCAS 412 and 413, the allocable pension
costs for PYs 2007 and 2008 were $14,142,644. We replicated GHI's allocation methodology in
allocating pension costs from the G&A cost pool to the indirect G&A cost rate. We determined
that the pension costs to be included in the indirect G&A cost rate were $540,853.

The table on the following page is a further allocation of the pension costs in the G&A cost pool.
It compares allocable CAS-based G&A pension costs with the pension costs included in the
indirect G&A cost rate reported on GHI's ICPs. Appendix D contains additional details on
allocable pension costs.




                                                6
           Comparison of Pension Costs Included in the Indirect G&A Cost Rate

                                                                                                            Pension Costs
                                                                                  I	
                                                                                  i                                 I -R~p~rted
                                  Plan Year I                                     I                     Per Audit !I ByGHI                                                                                                             Difference
                ,,.,.
                                                 2007 ............... 

                        ............................................................  ······~·······-   ..................................... ....... .................... . .............. ..
                                                                                                                                          ~        ~                                      ~      ~······""'"'"'''"'~······"''"'" •-'"""'-·-~••••H•-·~···"-"'"~""""''"''-'"''"''"""'"''~




                            Home Office
                                   Allocation                                                                           $178,252                                                 $280,332                                                       ($102,080)
                             NativeG&A                                                                                                                                                                                   I
                                Adjustment                                                                                    114,994                                                  126,017 1                                                     (11 ,023)
                                 Total2007 II                                                                                 293,246                                   I              406,349 i                                                    (113,103)
                                                                                                                                                                                                                          i
                               2008 

                                                                                  I                                                                                     ;

                           Home Office                                                                                                                                   \                                                I
                            Allocation                                            I                                            107,030 !                                               207,795 i                                                    (100,765)
                           Native G&A
                           Adjustment                                                                                         140,577                                                  302,802                                                      (162,225)
                            Total2008                                                                                         247,607                                                  510,597                                                      (262,990)

                                        Total                                                                           $540,853                                        i        $916,946 :                                                     ($376,093)

The FAR, the CAS, and the Medicare contracts require GHI to calculate pension costs for
Medicare reimbursement pursuant to CAS 412 and 413. However, GHI based its allocable
pension costs used for Medicare reimbursement on an amount that did not comply with the
provisions of CAS 412 and 413. As a result, GHI overstated the allocable pension costs in its
G&A cost pool by $10,382,279, and overstated the pension costs used to calculate its indirect
G&A cost rate by $376,093, for PYs 2007 and 2008.

RECOMMENDATIONS

We recommend that GHI:

   • 	 decrease the allocable pension costs in its fringe cost pool (and used to calculate its
       indirect fringe cost rate) by $1,411,051, and recognize $3,258,532 as the allocable
       pension costs for the fringe cost pool and its indirect fringe rate calculation in its ICPs for
       PYs 2007 and 2008; and

   • 	 decrease the allocable pension costs in its G&A cost pool by $10,382,279 and recognize
       $540,853 as the pension costs included in the indirect G&A cost rate calculation in its
       ICPs for PY s 2007 and 2008.




                                                                                                                                                              7

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, GHI disagreed with the calculations we used to develop
our findings and recommendations. Specifically, GHI disagreed with our recommendations
based on the fact that OACT used annual Employee Retirement Income Security Act of 1974
(ERISA) valuations as the basis for our CAS calculations. 6 A summary ofGHI's comments and
our responses follows.

GHI's comments appear in their entirety as Appendix E.

After reviewing GHI' s comments and supporting calculations, we maintain that our findings and
recommendations remain valid as stated. We based our CAS calculations on information and
assumptions used by GHI and its Local 153 plan actuary to calculate ERISA funding
requirements.

GHI made no mention of any CAS calculations until it responded to this draft report. Those
written comments made us aware for the first time that GHI had hired MERCER (one of its
actuarial consulting firms) to prepare CAS calculations for another audit. However, MERCER's
calculations did not use the same assumptions as those initially selected by GHI and its Local
153 plan actuary. Additionally, MERCER's calculations did not comply with the pension
segmentation language contained in the Medicare contract and did not provide any justification
for its change in plan assumptions.

Because we based our report on OACT's computation of CAS-based pension costs for the
Medicare segment and the "Other" segment, we requested and received from OACT a technical
memorandum with regard to the assertions made by GHI in its response. The OACT technical
memorandum is included in its entirety as Appendix F.

Historical Cost Submissions

Auditee Comments

GHI said that throughout the history of its Medicare contracts, it claimed reimbursement based
on an internal allocation of pension costs, initially by using the statutory accounting valuations as
a basis, but in later years, including the years in question, by using generally accepted accounting
principles (GAAP) pension expense. GHI stated that it based its Medicare allocation on pro rata
share of GAAP expense, using Medicare salary dollars as the basis for proration.

Office ofInspector General Response

The use of GAAP does not com ply with the Medicare contracts or the requirements of CAS 412
and 413, and for that reason we used the information that was available from GHI's Local 153
plan actuary. For PY 2007, we used the liabilities as determined for ERISA purposes. For the
PY 2008 liabilities, we could not use ERISA liabilities because of new regulations enacted by the

6
    P.L. No. 93-406,29 U.S.C. § 1002.



                                                 8

Pension Protection Act of2006 (PPA). 7 Both GAAP and PPA are inconsistent with CAS
because they use a settlement-based discount rate assumption instead of a long-term best
estimate of plan experience. Therefore, we asked GHI's Local 153 plan actuary to provide us
with the liabilities using a CAS-compliant methodology. On June 23, 2010, the plan actuary            I

provided the PY 2008 liabilities using a CAS-compliant methodology, which utilized the ERISA
long-term interest rate of 8.25 percent. This long-term interest rate was the assumption that GHI
and its Local 153 plan actuary selected. Accordingly, we used the 8.25 percent rate (as did
OACT) as the basis for our CAS calculations, having no knowledge of any changes in plan
assumptions.

Federal Employees Health Benefits Plan
Cost Accounting Standards Calculations

Auditee Comments

GHI said that after another audit, which found that the non-CAS basis for cost allocations for the
Federal Employees Health Benefit (FEHB) plan was not acceptable, GHI hired MERCER to
perform CAS 412 expense calculations for GHI's pension plans. GHI added that it believes that
those calculations, which used a long-term interest rate of 7.00 percent, are a better indicator of
the CAS 412 expense for these years.

Office ofInspector General Response

We acknowledge receipt ofGHI's CAS calculations, prepared by MERCER for its FEHB audit,
on October 26, 2012 (after issuance of our draft report). However, we disagree that these
calculations are a better indicator ofGHI's CAS 412 expense for these years. GHI disagreed
with OACT's use of 8.25 percent as the long-term interest rate to calculate CAS pension costs
for PYs 2007 and 2008. We note, though, that GHI and its Local I 53 pension plan actuary used
this same long-term interest rate to prepare its ERISA actuarial valuation reports. Furthermore,
CAS 412-50(b)(6) requires Medicare contractors to justify any material difference between the
interest rate used for CAS calculations and the rate used for ERISA funding valuations, but GHI
has provided no such justification or explanation to us.

Furthermore, GHI's CAS calculations, prepared June 29, 2011 (but not given to us until
October 26, 2012), did not comply with the Medicare contracts' segmentation requirements.
Specifically, the Medicare contracts require that the pension assets be separately computed in
accordance with CAS 413. However, GHI's CAS calculations were on a Total Company basis
and were allocated to the Medicare segment based on a ratio rather than as the product of a
separate calculation. GHI incorrectly allocated the assets and liabilities to the Medicare segment
based on a ratio of the audited Medicare segment assets and liabilities to the Total Company
assets and liabilities. While these calculations may satisfy the requirements of the FEHB
contract, they do not satisfy the requirements of the Medicare contracts.




7
    P.L. No. 109-280, August 17,2006.


                                                 9
Differences in the Cost Accounting Standards Methodology

Auditee Comments

GHI stated that the differences between MERCER’s calculations and the OACT CAS
calculations dealt with the actuarial cost method and the actuarial assumptions and actuarial
methods used. GHI referred to CAS 412.40(b)(1), which requires that “… the amount of pension
cost of a cost accounting period shall be determined by use of an immediate-gain actuarial cost
method.” GHI added that this method did not have to be the same as the actuarial cost method
used for ERISA funding calculations. GHI also referred to CAS 412.40(b)(2), which requires
that “… each actuarial assumption … shall represent the contractor’s best estimates of
anticipated experience under the plan,” which, GHI said, are not necessarily the same as the
assumptions chosen by the actuary for purposes of ERISA funding calculations.

Office of Inspector General Response

GHI contended that the calculations prepared by OACT were not CAS compliant, primarily
because of the use of 8.25 percent as the long-term interest rate. However, GHI and its Local
153 plan actuary selected this same rate and used it for its actuarial valuation calculations. This
8.25 percent rate was different from the 7.00 percent rate used by GHI and MERCER in its
calculations for the separate FEHB audit, and GHI did not give us any justification for the
change in assumptions. The plan actuary acts as a representative of the plan sponsor and is
obligated to comply with professional standards and accepted practices. Furthermore, the plan
actuary is also required to certify the plan’s ERISA assumptions to the IRS. The preambles of
the CAS pension rules clearly state that CAS pension costs should reflect the same general cost
principles as the ERISA funding rules. Absent any justification for a change in plan assumption,
as required by CAS 412-50(b)(6), we had no reason to regard the plan actuary’s assumptions as
non-compliant. Therefore, we used 8.25 percent as the long-term interest rate in our
computations. Ultimately, the information we used to calculate the 2008 CAS pension cost was
CAS compliant.

Assumptions, Actuarial Methods, and Calculations

Auditee Comments

GHI stated that our findings would have been very different if we had used GHI’s CAS
calculations. GHI further stated that had it been asked to supply the calculations, our findings
would have been much different due to the use of GHI’s selected CAS assumptions and actuarial
methods, rather than ERISA funding assumptions.

Office of Inspector General Response

We requested that GHI provide us with any CAS calculations for all of its qualified defined
benefit plans during our site work at GHI’s office in July 2010. Additionally, we had a
conference call with GHI and MERCER officials on July 19, 2010, to determine whether any
CAS information was available. During this discussion, we determined that neither GHI nor its



                                                10
   actuarial consulting firms had prepared any CAS calculations for the GHI Cash Balance or
   EmblemHealth pension plans. Furthermore, GHI officials gave us no indication that GHI was
   preparing the calculations or having its actuarial consulting firms calculate the required
   information. Accordingly, we requested that GHI provide the information necessary for OACT
   to calculate the Medicare segment pension assets and pension costs for both the GHI Cash
   Balance and EmblemHealth pension plans for the periods under review.

   GHI gave us the participant files, actuarial valuation reports, and IRS Form 5500 reports for both
   the GHI Cash Balance and EmblemHealth pension plans on August 4, 2010. After reviewing
   and verifying the submitted documents, we gave this information to OACT, which calculated the
   Medicare segment pension assets and subsequent pension costs for the GHI Cash Balance and
   EmblemHealth pension plans.

   GHI’s first mention of formal CAS calculations came in its written comments on this draft
   report. In fact, during the timeframe in which we were performing the current audit and
   preparing this draft report, we issued a total of seven audit reports to GHI. GHI made no
   mention of any formal CAS calculations either during, or in its comments on, any of these seven
   audits, and in fact concurred with the findings and recommendations contained in each of the
   reports:

1) Review of the Pension Segmentation Requirements for the Local 153 Pension Plan at Group
   Health Incorporated for the Period of April 1, 1987, to January 1, 2009 (A-07-011-00358),
   issued July 14, 2011.

2) Review of the Pension Segmentation Requirements for the Cash Balance Pension Plan at Group
   Health Incorporated for the period of September 1, 2003, to January 1, 2009 (A-07-12-00374),
   issued April 3, 2012.

3) Review of the Pension Segmentation Requirements for the EmblemHealth Services Company,
   LLC, Employees’ Retirement Plan at Group Health Incorporated for the Period of January 1,
   2008, to January 1, 2009 (A-07-12-00378), issued April 3, 2012.

4) Audit of Group Health Incorporated’s Local 153 Pension Plan Unfunded Pension Costs for Plan
   Years 1987 Through 2007 (A-07-12-00375), issued April 3, 2012.

5) Review of Medicare Part B Pension Costs Claimed by Group Health Incorporated for Plan
   Years 1987 through 2008 (A-07-12-00379), issued April 4, 2012.

6) Review of the Pension Costs Claimed by Group Health Incorporated for Plan Years 1999
   Through 2006 (A-07-12-00380), issued April 4, 2012.

7) Audit of Group Health Incorporated’s Cash Balance Pension Plan Unfunded Pension Costs for
   Plan Years 2003 Through 2007 (A-07-12-00376), issued April 4, 2012.




                                                  11
APPENDIXES
                       APPENDIX A: ALLOCABLE MEDICARE PENSION COSTS FOR THE                                                Page I of2
                       LOCAL 153 PENSION PLAN FOR GROUP HEALTH INCORPORATED 

                                     FOR PLAN YEARS 2007 AND 2008 


                                                                       Total              "Other"         :     Medicare
              Date                       Description                  Company             Segment               Segment




                              C:AS Funding:r~~get              §/)                                              $11004,099
                            i Percentage Funded                Jj_:                           100.00%              100.00%
                            jFunded Pension Cost               ~:                          $5,024,910           $1,004,099
                            !Allowable Interest                9/l                                 $0                   $0
                           .jAllo~able   Per1~ion Co~t        lOll                         $5,024,910           $1,004,099

                            'Contributions                                                                              $0
                                                                                                                        $0
                                                                                                              U~''
                                                                                                                        $0
                                                                                                                     ''uuN,UUUUU




                                                                                                                $1,371,264


                                S Funding "Ia!get.                    $7,3 70.1223         $5,998,959           $11..371,264
                          Jf~centage Fur~ded~~···                                             100.00%                100.00%
                             !Funded Pension Cost                                          $5,998,959           $1,371,264
                             !Allowable Interest                                                   $0                     $0
             2008         .. !Allocable Pension Cost 	                                     $5,998,959           $1,371,264
                           ~
                           '
ENDNOTES

lL    We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form
      5500 reports. The contributions included deposits made during the plan year and accrued contributions
      deposited after the end of the plan year but within the time allowed for filing tax returns. We determined the
      contributions allocated to the Medicare segment during the pension segmentation reviews of Group Health
      Incorporated (A-07-11-00358, A-07-12-00374, and A-07-12-00378). The amounts shown for the "Other"
      segment represent the difference between the Total Company and the Medicare segment.

y_ 	We subtracted the interest that was included in the contributions deposited after the beginning of the valuation
      year to discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we
      computed the interest as the difference between the present value of contributions (at the valuation interest rate)
      and actual contribution amounts.

JL    The present value of contributions is the value of the contributions discounted from the date of deposit back to
      the first day of the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan
      year to have been made on the final day of the plan year, consistent with the method mandated by the Employee
      Retirement Income Security Act.

:!LA prepayment credit represents the accumulated value of premature funding from the previous year(s). A
   prepayment credit is created when contributions, plus interest, exceed the end-of-year Cost Accounting
   Standard (CAS) funding target. A prepayment credit is carried forward, with interest, to fund future CAS
   pension costs.

'iL   The present value of funding represents the present value of contributions plus prepayment credits. This is the
      amount of funding that is available to cover the CAS funding target measured at the first day of the plan year.
                                                                                                                 Page 2 of2




§!_ 	 The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement 

      ofthe Federal Acquisition Regulation (FAR) 31.205-60)(2)(i). 


7J. The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the
   plan year. Because any funding in excess of the CAS funding target is accounted for as a prepayment in
   accordance with CAS 412.50(c)(l) (as amended), the funded ratio may not exceed 100 percent. We computed
   the percentage funded as the present value offunding divided by the CAS funding target. For purposes of
   illustration, the percentage of funding has been rounded to four decimals.

1lL We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

9J. 	 We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same
   proportion as the interest on contributions bears to the present value of contributions. However, we limited the
   interest in accordance with FAR 31.205-60)(2)(iii), which does not permit the allowable interest to exceed the
   interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal
   installments deposited within 30 days after the end of the quarter.

10/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.
                       APPENDIX B: ALLOCABLE MEDICARE PENSION COSTS FOR THE                                                     Page I of2
                     CASH BALANCE PENSION PLAN FOR GROUP HEALTH INCORPORATED
                                     FOR PLAN YEARS 2007 AND 2008

                                                                                  Total                   "Other"         Medicare
             Date                           Description                          Company                  Segment         Segment

             2007          ~~" Tc;~t~ibutions 	                        1[          ~?~?2??§}3             ..~5?)}8,969
            ~7:5o% "~"~~"~~=l~i~~~~!I~~"I~t~~~s~. ~                    ld'          ($320,445)                $298,020)
       January "l~. ~~OL"""""""I.~~.~~~E!Y.ttl\le.<::.oJ.1tributions   Jj_: . _!?~~~~~?~§                 $4~88(),949
                  ···"~·~·""""~" ... .J~re.Pax~entCredit Applied       1Li       $169,744                  $148,978
                                      !Present'' Value of Funding      ).!_!     ~~.?.~.~1.?.?.~.?2       $5,029,927
                                      1"
                                                                             r
                                                                          l
                                iCAS Funding Target                     6/! 	 ·~~31171?~13 	
                                                                       ~{""
                                                                                                          ~2,783,868       $~~~?()~?
                                ,Percentage Funded                      7/l 	                                100.00%        100.00%
                                                                       ~·
                                 Funded Pension Cost                   .8[                                $2,783,868       $388!045
                                !Allowable Interest                    9I                             I     $139,979        $19,512
                                JAilocable Pension Cost                10/                                $2,923,847       $407,557
                               1



                               :Discount for Interest 

                               ,.Present Value Contribution~ 

                              . :~~ep.ttxment Credit Applied 

                                'Present Valll.e of Funding" 


       January 1, ?()08.        jCAS Fundi.ng}'arget                                                                      ... $28,179
                               lPercentagt:."Funded                                                                           100.00%
                                :Funded Pension Cost                                                                          $28,179
                                'Allowable Interest                                                                                $0
             2008               ·Allocable Pension Cost                                                                       $28,179




ENDNOTES

lL   We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form
     5500 reports. The contributions included deposits made during the plan year and accrued contributions deposited
     after the end of the plan year but within the time allowed for filing tax returns. We determined the contributions
     allocated to the Medicare segment during the pension segmentation reviews of Group Health Incorporated
     (A-07-11-00358, A-07-12-00374, and A-07-12-00378). The amounts shown for the "Other" segment represent
     the difference between the Total Company and the Medicare segment.

Y.   We subtracted the interest that was included in the contributions deposited after the beginning of the valuation
     year to discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we
     computed the interest as the difference between the present value of contributions (at the valuation interest rate)
     and actual contribution amounts.

Jj_ 	 The present value of contributions is the value of the contributions discounted from the date of deposit back to the
      first day of the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan year
      to have been made on thdinal day of the plan year, consistent with the method mandated by the Employee
      Retirement Income Security Act.

1L A prepayment credit represents the accumulated value of premature funding from the previous year(s).     A
     prepayment credit is created when contributions, plus interest, exceed the end-of-year Cost Accounting Standards
     (CAS) funding target. A prepayment credit is carried forward, with interest, to fund future CAS pension costs.

).!_ 	 The present value of funding represents the present value of contributions plus prepayment credits. This is the 

     amount of funding that is available to cover the CAS funding target measured at the first day of the plan year. 

                                                                                                                    Page 2 of2


§!_ 	 The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of 

      the Federal Acquisition Regulation (FAR) 31.205-60)(2)(i). 


1L The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the 

    plan year. Because any funding in excess of the CAS funding target is accounted for as a prepayment in 

    accordance with CAS 412.50(c)(l) (as amended), the funded ratio may not exceed 100 percent. We computed 

    the percentage funded as the present value of funding divided by the CAS funding target. For purposes of 

    illustration, the percentage of funding has been rounded to four decimals. 


~   We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

2!.. 	 We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same 

    proportion as the interest on contributions bears to the present value of contributions. However, we limited the 

    interest in accordance with FAR 31.205-6G)(2)(iii), which does not permit the allowable interest to exceed the 

    interest that would accrue if the CAS funding target, Jess the prepayment credit, were funded in four equal 

    installments deposited within 30 days after the end of the quarter. 


I 0/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.
                  APPENDIX C: ALLOCABLE MEDICARE PENSION COSTS FOR THE        Page I of2
             EMBLEMHEALTH SERVICES COMPANY, LLC, EMPLOYEES' RETIREMENT PLAN 

                             FOR GROUP HEALTH INCORPORATED 

                                    FOR PLAN YEAR 2008 


                                                                      Total              "Other"            Medicare
            Date                     Description                     Company             Segment            Segment

                          'Contributions                      lt
                                                                 I   $J5,712,164         $15,264)31
                          :Discount for Interest              '/,[      $769,092)           $747,191)
                          'Present Value Contributions        'J[ . ~.1~,943,072         $14,517,540
                          .Prep<lyment Credit Applied                         $0                  $0
                           Present Value ofFuncling           .4[    $14,943,072         $14,517,540

                          iCAS Funding Target                                                      $0         $425,532
                          !Percentage Fund~d                                                    0.00%          100.00%
                          lF~~d~d.Pension Cost                                                     $0         $42515}.2
                          ;All~~able I~t~~~~t··                                                    $0          $21,901
            2008          J~i·t~~~ble Pension Cost                                                 $0         $447,433
                         .I

ENDNOTES

lL   We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form
     5500 reports. The contributions included deposits made during the plan year and accrued contributions
     deposited after the end of the plan year but within the time allowed for filing tax returns. We determined the
     contributions allocated to the Medicare segment during the pension segmentation reviews of Group Health
     Incorporated (A-07-11-00358, A-07-12-00374, and A-07-12-00378). The amounts shown for the "Other"
     segment represent the difference between the Total Company and the Medicare segment.

Y.. 	 We subtracted the interest that was included in the contributions deposited after the beginning of the valuation
     year to discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we
     computed the interest as the difference between the present value of contributions (at the valuation interest rate)
     and actual contribution amounts.

Jj_ 	 The present value of contributions is the value of the contributions discounted from the date of deposit back to
      the first day of the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan
      year to have been made on the final day of the plan year, consistent with the method mandated by the Employee
      Retirement Income Security Act.

:!L The present value of funding represents the present value of contributions plus prepayment credits.This is the
     amount of funding that is available to cover the Cost Accounting Standards (CAS) funding target measured at
     the first day of the plan year.

~    The
      	   CAS funding target must be funded by current or prepaid contributions to satisfY the funding requirement
     of the Federal Acquisition Regulation (FAR) 31.205-6G)(2)(i).

QL The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the
     plan year. Because any funding in excess of the CAS funding target is accounted for as a prepayment in
     accordance with CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent. We computed
     the percentage funded as the present value of funding divided by the CAS funding target. For purposes of
     illustration, the percentage of funding has been rounded to four decimals.

1J. We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.
                                                                                                                                !
                                                                                                                                I·




                                                                                                                   Page 2 of2


fu: 	 We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same
      proportion as the interest on contributions bears to the present value of contributions. However, we limited the
      interest in accordance with FAR 31.205-6G)(2)(iii), which does not permit the allowable interest to exceed the
      interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal
      installments deposited within 30 days after the end of the quarter.

2!.   The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.




                                                                                                                                !
                                                                                                                                Ii
                                                          APPENDIX D: TOTAL ALLOCABLE PENSION COSTS                                                                                Page I of2
                                                               FOR GROUP HEALTH INCORPORATED
                                                                  FOR PLAN YEARS 2007 AND 2008

                                                                                                                                            "Other"               Medicare
                   Date                                                                     Description                                     Segment               Segment

  ~}!lll\1~12J 1 ~,001                jLocal153 Pension Plan Allocable Pension Cost                                               lL        $5,024,910            $1 1 00~~ 1 Q~9" 

                                            Bal~~e Pension Plan Allocable Pensio~ Cost
                                     "" 1Cash                                                                                     fJ_       $2,923,847              $407,557 

                                       I


                                       l""""""                      "
                                       !Total PY* Allocable Pension Cost in the cost pool                                         JJ.•      $7,948,757            $1,411,656

                              ···-~m ·~;Ailoc~ble..Pension "Pe~centltge. 	                                                        .~!         2.24251%                        100%


 '
                   2007               !Allocable Pension Cost 	                                                                                             !     $1,411,656
                                                                                                                                                           ·1-·········"'""'"" .. '"'""~"""
                                      "!f;;i"~g;s~~~fit"A:ctJ~";i;~~"i
     w~·uu=~--~"""""'~"""=ummmmum'



                                                                                                                                                             .                      $0
                   2007                rTotal Allocable Pe~sion Cost in indirect cost rate
                                                 '   '	   •   •     • ••   '""wY   ••   •      """"   <   •    •   •   •   ~~cO
                                                                                                                                                                  $1,411 656




        January 1, 2008 	 ;Local153 Pension Plan Allocable Pension Cost                                                                     $5,998,959            $1,371,264
                          !Cash Balance Pension Plan Allocable Pension Cost                                                                 ... $194,928             $28,179
                      ... 1Eil1bi~ll1H~~lth S~rvlces C~mpa~y, LLC, Ell1pi~y;~~~""                                                       I


                          [Retirement Plan Allocable Pension Cost 	                                                               .!!{'              $0               $447,433

                                       'Total PY* Allocable I>,eE:~ion. C:.2.S.!.".i~. !~.~                   C()~tpooL                     $6,193,887            $1,846,876

                                       ;Allocable Pensi()J1                   ~en:e11!age 	                                                   1.72799%                        100%

                   2008                ,Allocable Pens!211.C:.2~!" .. ~
                                       <fringe Benefit i\~j. \l~tme11t ...
                   2008               I                           . . .	 .              . .. ..... . . . .
                                       iTotal Allocable Pension Cost in indirect cost rate                                                                        $1,846,876

         *Plan Year

ENDNOTES

lL   The allocable Cost Accounting Standards (CAS) pension costs is the amount of pension cost that may be allocated for 

     contract cost purposes. The calculation of the Group Health Incorporated (GHI) Local 153 Pension Plan allocable 

     pension cost appears in Appendix A. 


fJ_ 	 The allocable CAS pension costs is the amount of pension cost that may be allocated for contract cost purposes. The 

      calculation of the GHI Cash Balance Pension Plan allocable pension cost appears in Appendix B. 


JJ_ 	 The total plan year (PY) allocable pension cost in the cost pool is the total of the segments' CAS-based pension cost 

      from each qualified defined benefit pension plan. 


1L The allocable pension percentage is the percent of pension that was allocated in GHI's accounting system for the 

     "Other" segment and the Medicare segment. This percentage is computed by dividing the allocable pension cost by the 

     total PY allocable pension cost in the cost pool. 


~	 The    allocable pension cost is calculated using GHI's allocations from its accounting system. We replicated GHI's 

     allocation methodology when allocating pension cost from the cost pools to the cost rates, which were deemed 

     reasonable and appropriate by the incurred cost audit report. 


§!_ 	 GHI made the Fringe Benefit adjustment to account for fringe benefits for its Native general and administrative (G&A) 

      employees. This adjustment is based on the indirect fringe cost rate. We incorporated our audited adjustments to the 

      indirect fringe cost rate and used results from the incurred cost audit to calculate an audited indirect fringe cost rate. 

      This adjustment is calculated only for the G&A pool. 


]j_ 	The total allocable pension cost in the indirect cost rate identifies the audited allocable pension costs. These allocable 

     pension costs are used to compute the indirect G&A and fringe cost rates. 

                                                                                                                        Page 2 of2


.HL 	 The allocable CAS pension costs is the amount of pension cost that may be allocated for contract cost purposes. The
   calculation of the EmblemHealth Services Company, LCC, Employees' Retirement Plan allocable pension cost appears
   in Appendix C.
                                                                                           Page 1 of 4



                   APPENDIX E: AUDITEE COMMENTS




October 15, 2012

Daniel R. Levinson
Inspector General
Department of Health & Human Services
HHS/OIG/Office of Audit Services, Region VII
601 East 12th Street, Room 0429,
Kansas City, MO 64106

Dear Mr. Levinson:

Thank you for affording Group Health Incorporated ("GHI") this opportunity to
comment on draft Audit Report No. A-07-12-00381 ("the draft audit report") covering
the plan years 2007 and 2008, and for extending the due date for the submission of our
comments. We appreciate the cooperation rendered to us by your auditors. The draft
report is a revision of a previous draft report having the same identification number.

The draft report notes that effective January 1, 2007, GHI amended its disclosure
statement with CMS to receive reimbursement based on indirect cost rates submitted on
Incurred Cost Proposals ("ICP's").

The draft audit report recommends that:

      1. GHI "decrease the allocable pension cost in its fringe pool (and used to
      calculate its indirect fringe cost rate) by $1,411,051 and recognize $3,258,532 as
      the allocable pension costs for the fringe cost pool and its indirect fringe rate
      calculation in its ICP's for PY's 2007 and 2008; and

      2. GHI "decrease the allocable pension costs in its G & A cost pool by
      $10,382,279 and recognize $540,853 as the pension costs included in the indirect
      G & A cost rate calculation in its ICP's for PY's 2007 and 2008".

The draft report bases its recommendations on calculation of allocable pension costs
made by CMS Office of the Actuary (OACT). For purposes of these calculations, the


                            Group Health Incorporated
                           4419thAve, New York, NY 10001
                               www.ghimedicare.com
                                                                                            Page 2 of 4





        requested and received data pertaining to the annual ERISA valuations for the
pension plans maintained by GHI. OACT indicates in the draft report that the
computations are based on GHI's "historical practices" as well as on the segmentation
requirements for each plan.

We have carefully reviewed the draft audit report, and as described in more detail below,
we respectfully disagree with the use of the annual ERISA valuations as the basis for the
OACT's CAS calculations, and thus the report's findings and recommendations outlined
therein.
The basis for our disagreement is outlined below:


1. Historical cost submissions by GHI for these two years were based on GAAP
accounting. Throughout the history of GHI's Medicare contracts, GHI claimed
reimbursement based on an internal allocation of pension costs, initially using the
statutory accounting valuations as a basis, but in later years, including the years in
question (2007 and 2008), using GAAP pension expense as GHI adopted GAAP in
2007. The Medicare allocation was based on pro-rata share of GAAP expense, using
Medicare salary dollars as the basis for proration.

2. GHI also provides services to the Federal Employees Health Benefit Plan CFEHBP).
In connection with a similar audit where GHI was notified that the non-CAS basis for
cost allocations for the FEHBP was not acceptable, GHI hired Mercer to perform CAS
412 expense calculations for our pension plans. We believe that those calculations are a
better indicator of the CAS 412 expense for these years.

3. The differences between the Mercer CAS calculations and the OACT calculations
relate to the actuarial cost method and the actuarial assumptions and actuarial methods
used. In particular, CAS §412.40(b)(1) requires that "the amount of pension cost of a
cost accounting period shall be determined by use of an immediate-gain actuarial cost
method", but that method does not have to be the same as the actuarial cost method
used for ERISA funding calculations. Also, CAS §412.40Cb)(2) requires that "each
actuarial assumption...shall represent the Contractor's best estimates of anticipated
experience under the plan... ". which are not necessarily the same as the assumptions
chosen by actuary for purposes of ERISA funding calculations. In the absence of
knowing GHI's selected methods/assumptions for CAS, during the course of the audit,
the OACT used the ERISA funding assumptions and actuarial cost methods, which are



                              Group Health Incorporated
                            44191hAve,New York, NY 10001
                                 www.ghimedicare.com
                                                                                           Page 3 of 4





         than the actual CAS assumptions and actuarial methods selected by GHI and
used in Mercer's CAS calculations.


4. We believe that the audit findings would have been very different had OIG utilized
our CAS expense calculations. In examining the draft report, we understand that OIG
was operating without having formal CAS calculations submitted by GHI. However, had
GHI been asked to supply the calculations, the results would have been much different
due to the use of our selected CAS assumptions and actuarial methods, rather than
ERISA funding assumptions and methods. As noted above, Mercer actually prepared
calculations on the GHI Plans for another Federal agency that requested the CAS
calculations, not knowing that OIG was concurrently auditing that same plan. Mercer's
calculation of CAS expense for that plan was substantially higher than OIG's and would
have resulted in a substantially smaller difference compared to the allocated GAAP
expense figures that were originally used by GHI.

The chart below shows the differences between the GAAP figures reported by GHI, the
Mercer developed CAS expense figures and the amounts developed by OIG:




We believe that calculations using the Mercer CAS expense calculations for 2007 and
2008 represent a more appropriate basis than the ERISA assumption/cost method
derived figures developed by OACT, and would respectfully request that OIG consider
using the Mercer developed CAS calculations as the basis for applying the provisions of
CAS 412 to our plans for these years.

Based on the Mercer developed CAS figures and GHI's allocation methodology, we
believe that the reported pension costs related to indirect fringe cost pool should have
been $4,725,397 for PYs 2007 and 2008, resulting in an understatement of our pension
costs by($ 55,814). Similarly, we believe that our reported pension costs related to
indirect G&A should have been $722,004 for PYs 2007 and 2008, resulting in an
overstatement of our pension costs of $194,942. On a combined basis, we believe that

                             Group Health Incorporated
                            4419thAve, New York, NY 10001
                                www.ghimedicare.com
                                                                                           Page 4 of 4





                 amount should be $139,127 instead of the $1,411,051 shown in the draft
audit report.

We have also updated our Fringe and G&A pool & bases to reflect the net effect on the
actual billed expense. Based on the ICP and subsequent audit by an external CPA firm,
the effect is $61,468 to the Fringe expense and credit of ($151,261) to the G&A expense.
On a combined basis, we b elieve the undercharged amount should be ($89,793)
resulting in a credit due to GHI.

 Thank you again for affording GHI the opportunity to comment on the draft audit
report. We believe that the resolution of the issues raised by that report can best be
achieved through an open dialogue between the government and GHI. To that end, and
because the issues raised are technical and complex, we would be pleased to discuss the
report, our comments and our suggested recalculations with you or your staff prior to
the issuance of your final report.

Should you have any questions please contact me at (646) 458-6601.

Sincerely Yours,


&f~
Vice President




                               Group Health Incorporated
                              4419th Ave, New York, NY 10001
                                  www.ghimedicare.com
                                                                                                       Page 1 of 5


APPENDIX F: CENTERS FOR MEDICARE & MEDICAID SERVICES
        OFFICE OF THE ACTUARY MEMORANDUM




                        OF HEALTH & HUMAN SERVICES                     Centers for Medicare & Medicaid Services


                                                                       Office of the Actuary
                                                                       7500 Security Blvd, N3-01-21
                                                                       Baltimore, MD 21244-1850
                                                                       Phone: 410-786-6396
                                                                       FAX: 410-786-1295
                                                                       E-Mail: Russeii.Weatherholtz@cms.hhs.gov



                                     MEMORA N D UM

 To:           Jenenne Tambke

 From:         Russ Weatherholtz, Pension Actuary

 Date:         November 20, 2012

 Subject:      Response to GHI response to draft Audit Report A-07-12-00381




 In its response to the OIG draft Audit Report No. A-07-12-00381 dated October 15, 2012, Group
 Health Incorporated ("GHI") disagrees with the findings for plan years 2007 and 2008.

 GHI lays out their disagreement in four points:
        1. GHI's historical claims were based on GAAP accounting.
        2. The ERISA calculations used by OACT for this audit are not CAS-compliant.
        3. Mercer prepared CAS-compliant calculations for purposes of the FEHBP audit.
        4. Had Mercer' s CAS-compliant calculations been utilized for this audit, the findings
           would have been very different.

 GAAP accounting, which was used for GHI's historical claims, is inconsistent with CAS
 requirements because it uses a settlement based discount rate assumption, rather than a long-term
 best estimate of anticipated plan experience. C AS 412-40(b)(2) states: "Each actuarial
 assumption used to measure pension cost shall be separately identified and shall represent the
 contractor's best estimates of anticipated experience under the plan, taking into account past
 experience and reasonable expectations." CAS 412-50(b)(4) states: "Actuarial assumptions
 shall reflect long term trends so as to avoid distortions caused by short term fluctuations."

 Since the GAAP basis was non-compliant, we utilized the 2007 liabilities determined for ERISA
 purposes. Although the Cost Accounting Standards do not require contractors to use the same
 assumptions for ERISA and CAS purposes, contractors have generally used the same
 assumptions for computing accrued liability and normal cost under CAS that they also used for
 computing accrued liability and normal cost under ERISA prior to the effective date ofthe
                                                                                                        Page 2 of 5





     to Jenenne Tambke                                                                Page 2 of 5
November 20, 2012

Pension Protection Act (PP A). The same considerations apply (long-term market expectations
and plan investment policy) when establishing the interest rate assumption for CAS and ERISA.

For 2008, we could not use the ERISA liabilities because the Pension Protection Act
amendments to ERISA require a settlement basis discount rate starting in 2008. Therefore, we
requested the plan actuary to prepare 2008 liabilities using a CAS compliant interest rate
assumption. The actuary provided these values based on an 8.25% long-term interest rate, the
same rate used for the 2007 ERISA valuation. The liability information we used was CAS
compliant. We did not use the costs determined for ERISA purposes; we prepared cost
calculations in accordance with the methodology set forth in CAS 412 and 413, using the CAS
compliant liabilities prepared by GHI's plan actuary.

GHI claims that our calculations were not CAS compliant because the 8.25% estimated long­
term rate selected by the GHI Local 153 pension plan actuary and used for our calculations was
not the same as the 7. 00% rate determined by G HI and utilized by Mercer to prepare CAS
calculations for purposes of the Federal Employees Health Benefit Plan (FEHBP) contract audit.
The plan actuary, however, acts as a representative of the plan sponsor in these matters, is
obligated to follow professional standards and accepted practices, and must certify his ERISA
assumptions to the IRS. We have no reason to view the plan actuary's assumptions as non­
compliant. Furthetmore, we note the significant discrepancy between the rate determined by the
ERISA plan actuary and the rate selected by GHI for the Mercer calculations. However, GHI
has provided no basis to explain such a wide discrepancy in the rates or to show that Mercer's
7.00% rate meets the CAS criteria and the ERISA actuary' s 8.25% rate does not meet the CAS
criteria.

General audit standards require that data be verified and this is often accomplished by comparing
the audit information with similar data prepared for other purposes. For example, the rate
selected for CAS purposes can be compared to the rate GHI selected for SSAP purposes. For
12/31/2006, GHI used a long-tetm rate of 8.25% for its year-end disclosure. This rate should be
consistent with the CAS rate in that it reflects the long-term estimate of the rate of return on plan
assets taking into consideration the plan's current investment mix. We note that the 12/31/2006
SSAP 89 rate used by GHI is the same rate we used for our 11112007 CAS calculations. As of
12/3112007, GHI lowered its interest rate assumption for SSAP89 reporting purposes from
8.25% to 7. 50%. The actuaries report as of 12/31/2007 states "the actuarial assumptions were
changed to the current assumptions as displayed in this report in order to align with the financial
reporting of other members of the Emblem Health group." This suggests thatthe change in the
interest rate assumption was not due to a change in the plan's investment mix or a change in
long-term capital market trends, either of which could justify a change under the CAS criteria.
Furthermore, the change in the rate of return assumption cannot be attributed to actual
experience under the plan in question. In the January 1, 2008 ERISA valuation report, the GHI
actuary presents data that shows that "the moving average return on GHI pension assets has
consistently remained above the actuarial assumption." (See Exhibit I attached.)
                                                                                                     Page 3 of 5





     to Jenenne Tambke                                                              Page 3 of 5
November 20, 2012



GHI has provided no data to show that their assumptions meet the criteria of CAS 412. There is
no support concerning why the 7.50% SSAP interest rate or the 7.00% rate used by Mercer for
the GHI Local 153 plan was more appropriate for CAS purposes than the long-term rate used
under ERISA (prior to the PPA changes). CAS 412-50(b)(6) requires: "Ifthe evaluation of the
validity of actuarial assumptions shows that any assumptions were not reasonable, the
contractor shall
        (i)     Identify the major causes for the resultant actuarial gains or losses, and
        (ii)    Provide information as to the basis and rationale used for retaining or revising
                such assumptions for use in the ensuing cost accounting period(s). "

We acknowledge that the Mercer calculations (based on the 7% interest rate), were accepted by
the auditors who prepared the FEHBP audit. However, the fact that the FEHBP auditors
accepted Mercer's calculations without question does not prevent us from making an
independent evaluation ofthose results. A key purpose of the FEHBP audit review is to
determine the reasonableness of the experience-rated insurance rates charged under the FEHBP
plan. To make their determination, the FEHBP auditors will look at all of the expenses reflected
in the insurance rates, not just pension costs, in order to ascertain if those expense charges are
reasonable relative to the expenses charged to other commercial accounts. Accordingly, a key
metric for FEHBP purposes will be the level of CAS based pension costs relative to the pension
costs determined for insurance reporting (SSAP) purposes. The CMS contracts are cost
reimbursement contracts, not experience-rated insurance contracts. The preamble of the CAS
pension rules makes it clear that CAS pension costs should reflect the same general cost
principles as the ERISA minimum and tax deductible maximum funding rules. Accordingly, the
OIG has always looked to the ERISA costs to evaluate the reasonableness of CAS based pension
costs. To the extent that the CAS interest rate is materially different from the ERISA long-term
rate, it is incumbent upon the contractor to justify the difference.

We also note that the Mercer computations have come into play very late in the game. The OIG
performed their fieldwork in September, 2008 and in July, 2010. GHI had made their past
claims; the OIG came in and reviewed these claims and all of the available data; they relayed this
information to the actuaries at CMS; calculations were performed and reports were issued.
Specifically, the Review of the Pension Segmentation Requirements for the Locall53 Pension
Plan at Group Health Incorporated for the Period Aprill, 1987 to January 1, 2009 was issued
in draft in Spring, 2011. GHI concurred with those findings in its response letter dated June 24,
2011. The Mercer calculations were not issued until June 29, 2011. While neither the timing of
the Mercer report nor the fact that GHI has previously concurred with the our calculations
prevents us from revising our calculations, we would only do so if we had persuasive evidence to
suggest that the original data was materially deficient and the new data was more appropriate.
GHI has provided no data to show that the 8.25% rate for the GHI Loca1153 plan is not CAS
compliant and/or the 7.00% rate used by Mercer is more appropriate.
                                                                                                Page 4 of 5





     to Jenenne Tambke                                                           Page 4 of 5
November 20, 2012




For the reasons outlined above, we recommend that the OIG issue the final report based on the
results reflected in the draft report.




CC:    JeffWilson
       Eric Shipley
       Veda Wild
                                                                                      Page 5 of 5





     to Jenenne Tambke                                                  Page 5 of 5
November 20, 2012




                                      Exhibit I


                      Moving Average of Rate of Return on FMV

       16.00%

       14.00%

       12.00%        A --
       10.00%
                I
                     /1LV
                      y
        8.00%   1
                                                  assumed rate= 8.25%
        6.00%

        4.00%

        2.00%

        0.00%
                00   "'   0
                00   00   "'
                "' "' "'
                rl   rl   rl
